APPENDIX A

2019-SC-0457-D
(2019-CA-0577)

MOVANT

ADAM L. COLEMAN FOR THE
ESTATE OF LINDA COLEMAN

V.

BOYLE CIRCUIT COURT
2018-CI-00074

EPHRAIM MCDOWELL REGIONAL
MEDICAL CENTER

RESPONDENT

ORDER DENYING DISCRETIONARY REVIEW

The motion for review of the decision of the Court of Appeals is
denied.
ENTERED: August

13

, 2020.

C

JUSTICE

APPENDIX B

CommomuealtJj of iKenturky
©ourt of Appeals
NO. 2019-CA-000577-MR
ADAM L. COLEMAN AND
ASHLEY COLEMAN

v.

APPELLANTS

APPEAL FROM BOYLE CIRCUIT COURT
HONORABLE DARREN W. PECKLER, JUDGE
ACTION NO. 18-CI-00074

EMPHRAIM MCDOWELL REGIONAL
MEDICAL CENTER

APPELLEE

ORDER
DISMISSING APPF.AT
**

** ,15*

*,{.

BEFORE: LAMBERT, MAZE, AND L. THOMPSON, JUDGES.
This cause comes before the Court on two motions: 1) Appellant
Adam L. Coleman’s motion for an extension of time in which to file a prehearing
statement; and 2) Appellee’s motion to dismiss the appeal. Appellants have also
provided a written response to this Court’s May 7, 2019 Show Cause Order, which

states that Ashley Coleman “would no longer like to be an additional plaintiff of
this case as there would and could be delays due to the related facts of undergoi
oing
care for her pregnancy.” We construe this statement as a motion to dismiss Ashley
Coleman as a party to this appeal. Having reviewed the record, and being
otherwise sufficiently advised, IT IS HEREBY ORDERED as follows: 1)
Appellants motion to dismiss Ashley Coleman as a party to this appeal is
GRANTED; 2) Appellee’s motion to dismiss shall be, and hereby is, GRANTED.
This appeal is DISMISSED; and 3) Appellant Adam L. Coleman’s motion for an
extension of time in which to file a prehearing statement is DENIED AS MOOT.
/.

BACKGROUND

On March 1, 2018, Adam L. Coleman (“Adam”) and Ashley Coleman
(“Ashley”), his sister, filed a Complaintpro se in the Boyle Circuit Court alleging
Appellee s negligence caused the death of their mother, Linda Coleman. Adam is
the administrator of Ms. Coleman’s estate. On December 10, 2018, the trial court
denied Appellee’s motion to dismiss and ordered that Appellants had “until March
8, 2019 to retain legal counsel to represent the Estate, as they cannot proceed pro
se in this matter.”

-2-

In spring 2019, Appellee again moved to dismiss the Complaint
pursuant to CR1 41.02. The trial court granted the motion by order dated April 4,
2019. Adam filed a notice of appeal pro se. This Court issued its Show Cause
Order because the notice of appeal identifies both Adam and Ashley as Appellants,
but it was signed only by Adam. It is not alleged that Adam is an attorney licensed
to practice law in Kentucky. On May 20,2019, Adam and Ashley filed a response
to the Show Cause Order stating Ashley no longer wishes to be a party.
On May 20, 2019, Appellee filed a motion to dismiss the appeal.
Appellee argues the pro se notice of appeal constitutes the unauthorized practice of
law.
II.

ANALYSIS

There is no common law right to recover for the wrongful death of
another.” Reynolds v. Randolph, 2018 WL 5304451, at *5 (Ky. App. 2018)
(unpublished),2 discretionary review denied June 5, 2019. The statutory right of
action for the wrongful death of another is codified in KRS3 411.130. Subsection
(1) provides:

Kentucky Rules of Civil Procedure. CR 41.02 provides: “For failure of the plaintiff to
prosecute or to comply with these mles or any order of the court, a defendant may move for
dismissal or an action or of any claim against him/’
2 Reynolds is considered by the Court pursuant to CR 76.28(4)(c).
3 Kentucky Revised Statutes.
-3-

Whenever the death of a person results from an injury
inflicted by the negligence or wrongful act of another,
damages may be recovered for the death from the person
who caused it, or whose agent or servant caused it. If the
act was willful or the negligence gross, punitive damages
may be recovered. The action shall be prosecuted by the
personal representative of the deceased.
The statute then sets forth the beneficiaries of the wrongful death
action. The wrongful death claim belongs “only to the statutorily-designated
beneficiaries.” Reynolds, supra at *6 (citations omitted). The Reynolds Court
explained:
Even though the personal representative must prosecute
the [wrongful death] action, the action is pursued for “the
benefit of those statutorily designated persons.” Bennett
v. Nicholas, 250 S.W.3d 673, 675 n.l (Ky. App. 2007).
With no interest in the recovery, the personal
representative is a “nominal” party, as the “real parties in
interest are the beneficiaries whom [the personal
representative] represents.” Pete v. Anderson, 413
S.W.3d 291, 299 (Ky. 2013) (quoting Vaughn’s Adm'rv.
Louisville & N.R. Co., 297 Ky. 309, 179 S.W.2d 441,445
(1944)).
The duty the personal representative owes the statutory
beneficiaries vis-a-vis a wrongful death claim is a limited
one. The personal representative has a duty to prosecute
the action. See Pete, 413 S.W.3d at 299. “In the context
of the statute as a whole, ‘prosecute’ necessarily means
‘to commence and cany out a legal action.’” Id. (internal
citations omitted). However, ifthe personal
representative is not a lawyer, she must retain the
assistance of legal counsel to bring the action.
Thompson v. Jewish Hosp. & St. Mary’s Healthcare,
Inc., No. 2017-CA-000676-MR, 2018 WL 2078008, at
*2 (Ky. App. May 4, 2018). This rule makes sense
-4-

because “one may represent himself or herselfpro se but
that ability is limited to one’s self.” Baldwin v. Mollette,
527 S.W.3d 830, 835 (Ky. App. 2017). A personal
representative is not acting on her own behalf in filing a
wrongful death claim; she is acting on behalf of the
statutory beneficiaries.
Id. (footnote omitted) (emphasis added).
Appellants’ Complaint was filed “pursuant [to] KRS 411.130(1).”
Ashley has moved to be dismissed as a party, leaving only Adam as the Appellant.
Because Adam may not proceed pro se on behalf of all statutoiy beneficiaries, we
are constrained to dismiss this appeal.
III

CONCLUSION

WHEREFORE, Appellant Ashley Coleman’s motion to be dismissed
as a party is GRANTED. Appellee’s motion to dismiss is GRANTED. This
appeal is DISMISSED. Appellant Adam L. Coleman’s motion for an extension of
time in which to file a prehearing statement is DENIED AS MOOT.^, -

ENTERED:

JUL 1 0 2019

v/
JUDGE/COURTOF appeals
/

-5-

APPENDIX C

18-CI-OOo/

,ered

03/19/2019

Cortney Shewma s ^ Boyle Circuit Clerk

t
i
!

COMMONWEALTH OF KENTUCKY
BOYLE CIRCUIT COURT
NO. 18-CI-00074

/

CORTNE
BDY

Filed Electronically

:QUBL

PLAINTIFFS

ADAM L. COLEMAN AND ASHLEY
COLEMAN
ORDER OF DISMISSAL

v.

^iRCU.

£
DEFENDANT

EPHRAIM MCDOWELL REGIONAL
MEDICAL CENTER
*

The Defendants having moved this Court to dismiss the Complaint pursuant to CR

41.02, and the Court having reviewed the record and being otherwise sufficiently advised,
IT IS HEREBY ORDERED AND ADJUDGED that the Motion is SUSTAINED and
all claims asserted in the Complaint shall be and hereby are DISMISSED with prejudice.
There being no

remaining claims, this action shall be dismissed and stricken from the

docket.
This is a final and appealable Order, there being no just reason for delay.
This the

26
__day of

, 201$.
•%
JUD

iYLE'ClRCUIT COURT
<s
e
c
c

TENDERED BY:

*C

SC

/s/ Pamela Adams Chesnut
PAMELA ADAMS CHESNUT
Attorneys for Defendant

c
C
h

1
'(Tendered

18-C1-00074

03/19/2019

Cortney Shewmaker, Boyle Circuit Clerk

~7
/
' /
,ared

18-CI-0007*

Cortney Shewma.

03/19/2019

?Boyle Circuit Clerk

/

CLERK’S CERTIFICATE OF SERVICE
/

This is to certify that a true

and accurate copy of the foregoing Orderhas been

mailed to the following, via first class US mail, postage prepaid, on this

J

day of

2019:
n/
Adam L. Coleman
201 East Broadway
Danville, KY 40422
Adam301994@vahoo.com

Ashley Coleman
500 Woodspointe Drive
Wilmore, KY 40390

V

Pamela Adams Chesnut, Esq.
Green Chesnut & Hughes, PLLC
201 East Main Street, Suite 800
Lexington, KY 40507

y
CORTNEY SHEWM AKER, CLERK

CLERK, BGJyLE CIRCUIT COURT

c
c

5

*!
<
<
I

2

Tendered

18-CI-00074

03/19/2019

Cortney Shewmaker, Boyle Circuit Clerk

Additional material
from this filing is
available in the
Clerk's Office.

